INFORMATION SECURITY PROGRAM
      Department of Transportation

       Report Number: FI-2003-086
     Date Issued: September 25, 2003
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Information Security Program,                                         Date:    September 25, 2003
           Department of Transportation
           FI-2003-086

  From:    Alexis M. Stefani                                                          Reply to
                                                                                      Attn. of:   JA-20
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Chief Information Officer

           This report presents the results of our audit of the information security program at
           the Department of Transportation (DOT). Responding to requirements of the
           Federal Information Security Management Act (FISMA), our objective was to
           evaluate DOT's information security programs and practices. We focused our
           evaluation on management controls, network and Electronic-government
           (E-government) security, systems security, protecting national-critical systems,
           personnel security, and system contingency planning. We also provided input
           (Exhibit A) to DOT's annual FISMA report by answering questions specified by
           the Office of Management and Budget (OMB). Our scope and methodology are
           described in Exhibit B.


           INTRODUCTION
           FISMA requires Federal agencies to ensure that computer systems and data are
           adequately protected from losses due to attacks. Protecting computer systems and
           data presents a challenge to all Federal agencies. Because DOT maintains one of
           the largest portfolios of information technology (IT) investments in the Federal
           government, it is critical that DOT protects its systems and sensitive data. In fiscal
           year (FY) 2003, DOT's information technology budget totaled about $2.7 billion.1

           DOT has 12 major organizations (Exhibit C) with about 630 computer systems.
           DOT systems include safety-sensitive air traffic control systems and surface
           1
               Excludes budget for U.S. Coast Guard and the Transportation Security Administration which transferred to the
               Department of Homeland Security in March 2003.
                                                                                   2


transportation systems, as well as financial systems that disburse over $50 billion
in Federal funds each year. DOT also maintains air traffic control systems that are
essential to the Nation's defense, economic security, or public confidence. These
“national-critical” systems need to be secured on a priority basis.

During FY 2003, DOT also continued to expand its E-government services,
doubling the number of public web sites to more than 400. DOT uses these web
sites, which contain millions of web pages, to conduct business, such as accepting
hazardous material shipment registrations and payments; and to disseminate
information, such as temporary flight restrictions or motor carrier safety records.


RESULTS IN BRIEF
For the last 2 years, DOT reported its information security program as a material
internal control weakness under the Federal Managers' Financial Integrity Act
(FMFIA). This year, DOT made significant progress toward meeting its
commitment to improve information security.

The most noteworthy improvement DOT has made since we began the annual
information security review in FY 2001 is in protecting its computer systems from
attack by outsiders. For example, DOT enhanced its defense against intrusions
from the Internet in FY 2002, and further reduced its vulnerability to attack this
year by establishing a Departmentwide security incident response center. This
center, with the cooperation of FAA's incident response center, detects, analyzes,
and prevents hundreds of potential intrusions from the Internet on a daily basis.
Also, this year, DOT appointed a Chief Information Officer (CIO), increased the
CIO's resources and influence, and developed a more reliable inventory of
systems; all of which further strengthened DOT's information security protection.
In addition, air traffic control systems and facilities stayed operational during the
recent blackout as a result of quickly switching to their emergency backup
systems.

However, DOT still has a long way to go in securing its computer systems from
attack by insiders: employees, contractors, grantees, and industry associations.
According to the Federal Bureau of Investigation, insiders remain a major threat—
about 50 percent of unauthorized activities against all computers were done by
insiders during 2003. DOT is not exempted from such a threat. A critical control
to mitigate such threats is to perform security certification reviews on individual
systems. However, only 33 percent of DOT's systems will have completed such
reviews by September 2003. We also found that DOT needs to continue enforcing
background checks on contractor employees performing sensitive system work,
                                                                                3


and to enhance its contingency planning to ensure business continuity in case key
computer system operations are disrupted for a prolonged period of time.

In view of the security weaknesses that still need to be corrected, DOT's
information security program remains a material weakness and requires continued
senior management attention. In FY 2004, it will be critical for the departmental
CIO, with support from the Operating Administrators and their respective CIOs, to
continue exercising leadership and providing the direction and oversight to ensure
that the Operating Administrations develop adequate plans to correct the
remaining weaknesses and execute those plans effectively. DOT's progress
correcting the remaining weaknesses will help clarify whether the CIO has
adequate authority, resources, and processes to ensure effective IT security and
investment management controls.

As a result of this year's assessment, we are making a series of recommendations
on pages 14 and 15 of this report to help the Department correct the material
weakness. By implementing these recommendations, DOT should not only
increase its defense against insider attacks but also enhance the oversight of its
multi-billion dollar annual IT investments. The DOT CIO agreed with our
findings and recommendations.


FINDINGS AND RECOMMENDATIONS

Management Controls
The Clinger-Cohen Act requires that DOT appoint a CIO responsible to ensure the
Department acquires and operates cost effective IT systems, and protects the
systems and data from attack. In FY 2002, we reported that DOT had not had a
CIO since January 2001 and that the CIO lacked the authority to require the
Operating Administrations to implement DOT security guidance.              We
recommended that DOT appoint a CIO and establish the CIO's authority to
approve Operating Administration IT budgets and to provide input to Operating
Administrations' CIO performance appraisals.

During FY 2003, DOT made progress by appointing a Departmentwide CIO and
obtaining significant budget increases for the Office of the CIO. Although DOT
did not give the CIO the authority to approve Operating Administration IT budgets
or to provide input into Operating Administrations' CIO performance appraisals as
we recommended, it did increase the CIO's influence over IT decisions by forming
a departmental Investment Review Board (the Board). The Board, chaired by the
Deputy Secretary, with the CIO, the Chief Financial Officer, the General Counsel,
and the Assistant Secretary for Administration as official members designated by
                                                                                                            4


the Secretary, has the authority to approve, modify, or terminate major IT
investments.2

Creation of the Board, appointment of a CIO, and enhancement of the CIO's
influence should improve DOT's oversight of IT investments and security;
however, it is too early to judge the effectiveness for two reasons. First,
historically, the Operating Administrations have functioned independently on IT
matters with little departmental direction. Second, the Review Board only began
reviewing IT investments in June for this year.         DOT's ability to improve
computer security is closely tied to the effectiveness of the IT review process
because security needs of IT projects and programs must be considered in making
investment decisions. Much of the value added by the CIO will come through his
involvement in investment decisions. Under the Clinger-Cohen Act, the CIO is
responsible for promoting effective processes to acquire and operate information
systems, and to ensure that systems are adequately protected from threats.

During FY 2004, at the request of the Senate Appropriations Committee, we plan
to evaluate the effectiveness of the CIO's efforts to coordinate with the Operating
Administrations in improving IT security and investment controls. This year, we
identified the following opportunities to improve DOT's IT investment review
process, which should result in better secured and more cost-effective IT
investment.

Ø Criteria are needed to help the Board select IT investments for review. This
  year, the Board focused on reviewing “cross-cutting” IT projects concerning
  more than one Operating Administration. For example, the Board reviewed
  the progress of implementing a new departmental accounting system, the status
  of converting the departmental payroll system, and a proposal to consolidate
  the IT infrastructure in DOT Headquarters. However, the Board reviewed only
  one Operating Administration-specific investment after we had identified
  significant cost and schedule problems in the project.

      The Board needs to play a more proactive role in identifying high-risk
      Operating Administration IT investments for review, considering that over 90
      percent of DOT's IT budget is appropriated directly to the Operating
      Administrations. There is also a significant need for increased management
      oversight of these investments. We have issued several reports on major
      acquisitions involving extensive software development work that require senior



2
    Designation of official Board members was specified in the DOT Information Technology Capital Planning and
    Investment Control Manual, June 21, 2002.
                                                                                                       5


      management level attention.3 For example, FAA's Wide Area Augmentation
      System (WAAS), Standard Terminal Automation Replacement System
      (STARS), and Local Area Augmentation System (LAAS) have all experienced
      significant cost overruns (from 31 percent to 227 percent) and schedule delays
      (from 4 years to 7 years). Congress has also expressed concerns over “the
      potential for dramatic cost escalation” in FAA's multi-billion-dollar new En
      Route Automation Modernization (ERAM) project.

      The Board needs to issue more specific criteria for identifying IT projects for
      its review, and direct the Operating Administrations to brief the Board on IT
      projects that meet the specified criteria.

Ø We found that more substantive, in-depth reviews of Operating Administration
  IT budget requests are needed. This year, the Operating Administrations
  submitted 60 business cases to the CIO Office for review and the Board's
  approval for budget submission. However, the Board did not start reviewing
  any IT investment until June this year and the Operating Administrations did
  not submit budget proposals until August. Due to the short timeframe, the
  reviews were limited to ensuring that required data were included in the
  submission, rather than verifying that the data were reliable and reasonable. In
  our opinion, more substantive, in-depth review of Operating Administration
  budget proposals is needed to prevent the reviews from being superficial and
  cursory.

      The CIO Office plans to start the budget review process earlier next year. This
      early start, in conjunction with more experience in reviewing IT investment
      projects, should enable the Board to provide more insightful oversight of next
      year's budget requests.

Ø Establishing the Board with departmental membership represents a significant
  step forward. However, communications between the departmental Board and
  the Operating Administrations can be improved. This year, there was
  inadequate representation from the Operating Administrations when the Board
  met to discuss “cross cutting” IT investments or investments concerning a
  particular Operating Administration. For example, when the Board met to
  discuss annual IT budget requests, FAA was not represented to answer
  questions even though it was responsible for the largest budget component.
  Conversely, the departmental CIO Office was not represented when FAA met
  to make major IT investment decisions.


3
    Status of FAA's Major Acquisitions, Report Number: AV-2003-045, June 26, 2003; and DOT Top Management
    Challenges, Report Number: PT-2003-012, January 17, 2003.
                                                                                                                   6




Network and E-government Security
DOT has thousands of computers on its internal networks. These systems contain
sensitive information. DOT employees, contractors, grantees, and industry
associations access these computers through either the Internet (front doors) or
other network connections (back doors). In addition, DOT uses over 400 public
web sites to provide E-government services to the public.

In FY 2002, we reported that DOT had enhanced security over the Internet (front
door) connection points to DOT's internal networks4, but we found hundreds of
unsecured telephone line (back door) connections. We also found that web sites
operated by DOT were vulnerable to attack, and there was no security assurance
for web sites operated by contractors. Further, DOT's process to report computer
security incidents was not effective—some major attacks were not reported to the
central authority in FY 2002.

During FY 2003, DOT made good progress securing “back door” network
connections, reducing DOT's vulnerabilities to attack, and enhancing its security
incident response capabilities. For example, the newly established departmental
incident response center, with the cooperation of FAA's incident response center,
detects, analyzes, and prevents hundreds of potential incidents from the Internet
each day. We identified the following progress and remaining problems.

Ø We still found unsecured telephone line connections this year.                  These
      unsecured connections, which were located at one FAA facility, FAA
      Headquarters, and DOT Headquarters, allowed individuals located outside of
      DOT premises to make a direct connection to DOT network without password
      authentication or callback security to validate the calling source, as required by
      DOT policy. DOT took action by terminating or establishing security
      mechanisms on 197 dial-up connections. It is currently reviewing the
      remaining 71 connections. (See Table 1 on page 7.)




4
    While the E-government web sites are connected to the Internet for public access, other DOT systems, which contain
    sensitive information, are connected to internal networks only. Entry points to internal networks are protected by
    security mechanisms, such as firewall security, to allow only authorized personnel to access the data.
                                                                                         7



                                         Table 1
                 DOT Corrective Actions on Unsecured Dial-up Connections

                             Number of                   Corrective Actions
                              Unsecured        Number of Dial-up          Number of
             -------------     Dial-up      Connections Terminated          Dial-up
                             Connections    or Security Requirement      Connections
                              Identified          Established           Being Reviewed
          FAA Facilities         237*                170                    67
         FAA Headquarters         24                  24                     0
         DOT Headquarters          7                   3                     4
              Total              268                 197                    71
       * 124 dial-up connections at one FAA facility were initially identified during
         FY 2002, and re-confirmed in FY 2003.


   To prevent the problem from recurring, DOT plans to improve the process of
   authorizing network connections, conduct quarterly compliance reviews, and
   install additional monitoring devices on DOT networks, if funding permits.

Ø This year, DOT began evaluating security of contractor-operated web sites.
  Also, DOT-operated web sites are being regularly scanned to detect and
  eliminate vulnerabilities. For example, the number of vulnerabilities was
  reduced from 1,200 to 725 between June and July of this year. The enhanced
  security successfully protected DOT web servers from recent cyber worm
  attacks on the Internet.

   However, this scanning effort was not enforced on the Operating
   Administrations' internal networks. We found incidents where software
   patches were not properly installed on FAA systems and transit financial
   systems. The CIO Office needs to ensure that Operating Administrations
   periodically scan their internal networks and timely install software patches.

Ø DOT enhanced its security incident reporting capability by issuing new
  guidance and establishing a Departmentwide incident response center to
  coordinate security reporting. However, DOT still did not report all major
  security incidents to the central authority—only 17 of 39 major incidents
  associated with viruses, denial-of-service attacks, or web defacements were
  reported to the central authority this year.

   This occurred because DOT has not defined which incidents should be
   reported to the central authority. Failing to report these serious incidents could
   impair the central authority's effort to identify and respond to malicious cyber
   attacks against Federal government information resources in a timely manner.
                                                                                                              8


      The central authority has published clear guidance describing what types of
      incidents to report.5 DOT is revising its guidance to incorporate the central
      authority's reporting requirements. This action should result in improvement
      next year.

Systems Security
More than 60,000 insiders—employees, contractors, grantees, and industry
associations—have access to DOT computer systems. According to the Federal
Bureau of Investigation, insiders remain a major threat—about 50 percent of
unauthorized activities against all computers were done by insiders during 2003.

In FY 2002, we reported that DOT systems were vulnerable to abuses or attack
because most had not undergone the system security certification review. This
review, which is performed by system owners in conjunction with the CIO Office,
is a critical and effective security measure to reduce the insider threat. The review
will determine whether individual systems are adequately secured commensurate
with operational risks. We also found that DOT needed to develop a more reliable
systems inventory and security cost estimates.

During FY 2003, DOT made progress by establishing a more reliable system
inventory. However, DOT still has a long way to go in securing its computer
systems from attack by insiders. In June 2003, OMB established a goal for
agencies to increase system certification reviews from 47 percent
(Governmentwide average as of September 2002) to 80 percent of their systems
this year.6 In response, the CIO revised DOT's goal and focused significant
attention and resources on completing certification reviews. However, even with
additional attention, only 33 percent of DOT's systems will have completed
certification reviews by September 2003. With a 33-percent completion rate,
DOT is trailing behind the Administration's goal. We identified the following
progress and problems:

Ø DOT conducted over 150 certification reviews this year. As a result, the
  number of DOT systems certified as adequately secured will have increased
  from 12 percent to 33 percent for all systems, and from 21 percent to 68
  percent for mission-critical systems by the end of September 2003. In June
  2003, DOT established a new performance goal to have 90 percent of total
  systems certified by July 2004. However, Operating Administration plans
  need to be adjusted to support this new goal, especially FAA which will have

5
    Federal Computer Incident Response Center Reporting Requirements published at www.fedcirc.gov web site.

6
    According to OMB, 47% of Government-wide computer systems were reported as having undergone the security
    certification review as of September 2002. (FY 2002 Report to Congress on Federal Government Information
    Security Reform, dated March 16, 2003)
                                                                                9


   to review and certify more than 80 percent of its systems in the next 9 months.
   The CIO Office is working with the Operating Administrations to implement
   the new goal, including target completion dates throughout the year. This
   represents a significant improvement from previous Operating Administration
   plans, which called for all systems to be certified by September 2006.
   However, this new commitment will be a challenge to DOT and will require
   significant resource commitments to complete reviewing two-thirds of the total
   systems in the next 9 months. (See Table 2 below.)
                                     Table 2
                       System Security Certification Reviews
                Operating        Total      Certified by   Systems to be
              Administration    Systems     September       Certified by
                                               2003          July 2004
                  FAA             421            70             351
                 FHWA              25            14              11
                  FRA              22             6              16
                 FMCSA             19             6              13
                  RSPA             25             4              21
                  BTS               7             3               4
                 MARAD             12             7               5
                  FTA               7             7               0
                  OST              46            46               0
                 NHTSA             42            42               0
                 SLSDC              1             1               0
                  STB               3             3               0
                  Total           630           209             421
                                  ===          ===              ===
                Percentage       100%          33%             67%

Ø DOT needs to ensure that systems are tested during certification reviews. One
  of the key steps in performing a security review is the security testing and
  evaluation process, which determines the system's compliance with specified
  security requirements. However, we found little documentation supporting
  that system security controls had been tested and evaluated.

   Specifically, we found that five out of eight systems we reviewed this year did
   not have adequate evidence to support the results of security testing. Security
   testing is required for both system security certification reviews and self
   assessments. Among these five systems, three have been certified as
   adequately secured and the other two have completed a self assessment, a
   building block for certification reviews. Our independent review of these
   systems found instances where controls were not functioning as intended.
   Further, we found one Federal Transit Administration system, which is used to
   manage billions of dollars in grant payments, was accredited for operations
   without having conducted any security testing or evaluation. Without testing
   or documenting the effectiveness of security controls, management cannot
                                                                                  10


   have reasonable assurance that risks are properly mitigated or that identified
   security problems are corrected. The lack of testing may explain why we
   found significant control weaknesses in the systems that had undergone
   security certification reviews.

   Another important step in performing a security certification and accreditation
   review is for the authorizing official to accept (accredit) the system for
   operations. Obtaining system accreditation from the correct authorizing
   official is critical because that official has to accept the risks of system
   operations. We selected 27 systems for review and found that 4 systems in 3
   Operating Administrations (the Office of the Secretary, the Bureau of
   Transportation Statistics, and the Maritime Administration) were not
   accredited by authorized officials. DOT needs to perform quality assurance
   reviews on the Operating Administrations' system testing and accreditation.

Ø System owners still cannot support their security cost estimates and do not
  track security spending. During FY 2003, DOT provided training and tools to
  assist system owners to identify costs associated with implementing security.
  We examined security cost estimates for five major IT investments in three
  Operating Administrations (FAA, the Bureau of Transportation Statistics, and
  the Maritime Administration), totaling $6.6 million. Again, we found that
  system owners did not use the DOT guidance and could not support the
  security cost estimates reported to OMB. Also, they could not provide data for
  actual security spending. As a result, there is little assurance that costs planned
  for securing computer systems are reliable or spent as intended.

   In addition, we continue finding inconsistent security cost estimate reporting to
   OMB. The Operating Administrations are required to report their security cost
   estimates for both budget review (Exhibit 53) and IT investment project review
   (Exhibit 300). These submissions were reviewed by the CIO Office.
   However, we found that security cost estimates differed by approximately $11
   million between two submissions. DOT needs to implement comprehensive
   processes and procedures for security cost preparation and execution.


Protecting National-critical Assets
About 100 computer systems and facilities supporting FAA air traffic control
operations are considered national-critical assets because they are essential to the
Nation's defense, economic security, or public confidence. These systems are not
accessible to the public because they operate on dedicated networks with no direct
connections to the Internet, and they are housed within secured compounds.
However, if not adequately secured individually, these systems are vulnerable to
abuse and attack by insiders—employees, contractors, and industry associations.
                                                                                11



In FY 2002, we reported that FAA needed to accelerate security certification
reviews of these critical computer systems and facilities, and enhance en route
center contingency plans. During FY 2003, FAA continued strengthening its
“boundary protection” at network entry points. It also assisted the DOT CIO
Office by recommending scanning tools and researching various smart card
technologies for Departmentwide use.          However, FAA made only limited
progress accelerating security certification reviews for these critical systems and
facilities, and enhancing en route center contingency plans. We plan to issue a
separate report detailing the findings and recommendations to the FAA
Administrator and the departmental CIO.

Ø During FY 2003, FAA increased system certification reviews from 36 to 56 for
  these critical systems. However, these certification reviews were not adequate
  to ensure that all significant security vulnerabilities were identified and
  resolved. These systems are developed in FAA's computer laboratory and
  deployed to multiple operational sites. FAA's certification reviews focused on
  evaluating security in the development systems at the computer laboratory, but
  did not include any operational systems in the field. We found that system
  security vulnerabilities existed at the operational sites. FAA needs to expand
  security certification reviews to cover operational systems, because
  configurations and security controls differ at each operational site.

Ø FAA also has not enhanced en route center contingency plans to meet the
  increased need for emergency preparedness. FAA relies on 20 en route centers
  to direct high altitude traffic, which also provide flight information to other
  facilities. En route centers are well equipped to deal with short-term
  emergencies to ensure the public safety. For example, all of the en route
  centers stayed intact and continued operations during the electricity blackout in
  September 2003. We plan to issue a separate report on FAA's readiness to deal
  with other emergencies, such as prolonged service disruptions at a facility or
  loss of the entire facility.


Personnel Security
Ensuring the integrity and reliability of the people authorized to access DOT
systems is important. Training employees and conducting background checks
help reduce personnel security risks. In FY 2002, we reported that DOT provided
adequate security awareness training to all employees, but did not provide
adequate specialized training to employees with significant security
responsibilities because it had not completed identifying these individuals. We
also reported that 24 percent of the contractor employees we sampled did not
                                                                               12


receive background checks and the Operating Administrations did not consistently
include background check requirements in contracts.

This year, DOT did a commendable job in improving security training. FY 2003
was the second year that DOT provided Departmentwide security awareness
training, including special sessions for senior officials, system owners, and
security administrators. DOT also provided specialized training to more than 600
individuals with information security responsibilities. In addition, DOT issued
specific guidance for including background check requirements in all system-
related contracts. However, as we reported in FY 2002, the lack of background
checks on individuals performing sensitive computer work remains a persistent
problem in DOT.

Ø DOT did not conduct background checks on 9 of the 20 contractor employees
  hired by the CIO Office to perform security certification reviews on DOT
  systems. This happened because of inadequate background check requests and
  the practice of waiving checks on temporary personnel. According to DOT
  policy, individuals should receive background checks in accordance with their
  job sensitivity. For example, employees and contractors performing sensitive
  system work are required to receive a high level background check
  (Background Investigation). However, the CIO office only requested low level
  background checks (fingerprint check) for its contractor employees because the
  work only lasted for 6 months.

   Unfortunately, the DOT security office did not even perform fingerprint checks
   on 9 of the 20 contractor employees because they were mistaken as temporarily
   engaged to perform low risk duties such as janitorial services. As a result,
   those individuals were given inappropriate access to sensitive information such
   as system vulnerability assessments and threat analyses without any
   background checks. After we identified this deficiency, DOT management
   immediately began fingerprinting these individuals and stopped the practice of
   waiving fingerprint checks on temporary personnel.

   We found similar incidents in the Operating Administrations. For example, 19
   DOT and contractor employees performing sensitive work, such as maintaining
   network security, on the departmental accounting system and the transit grant
   management system did not receive adequate background checks.

   While background checks do not guarantee a person's loyalty or
   trustworthiness, they provide valuable information to help management
   determine whether an employee should be given access to DOT systems. This
   is especially critical to DOT because DOT relies on about 18,000 contractor
   employees to develop new systems, operate existing systems, and perform
                                                                                13


   sensitive work such as managing network security, assessing computer
   vulnerabilities, or analyzing potential threats.

   As we reported in FY 2002, FAA has made significant progress in enhancing
   background checks on its contractors in recent years. However, in spite of
   multiple audit reports and DOT guidance issued on this subject, the lack of
   background checks on contractor employees remains a persistent problem in
   other Operating Administrations. The lack of progress may be due to the fact
   that responsibilities for background checks are divided among multiple
   organizations. The CIO, the Office of Security, and individual contracting
   officers all have a role. The CIO, the Senior Procurement Executive, and the
   Director of Office of Security and Administrative Management need to work
   together to develop and enforce a specific plan to fix this problem next year.


System Contingency Planning
Contingency plans allow operations to continue in the event of service disruptions.
In response to the increased need for preparedness, DOT has established
emergency communications capabilities to allow senior managers to
communicate, if DOT Headquarters became nonfunctional. However, DOT has
not focused on ensuring business continuity in case key computer system
operations are disrupted. This may hinder DOT's readiness to participate in the
Administration's Forward Challenge exercise in 2004, which will test agencies'
readiness for major IT outages. Specifically,

Ø DOT requires contingency plans to allow every mission-critical information
  system to rapidly and effectively deal with potential disruptions of business
  functions. In spite of today's increased need for emergency preparedness, only
  26 percent of DOT systems have established contingency plans.

   In addition, existing system contingency plans are often inadequate. For
   example, we selected 10 system contingency plans for review and found that
   the business impact analysis—the fundamental first step in planning for
   contingencies—was not performed for 4 systems. Without this analysis,
   management does not know how long it could continue business operations
   without computer systems support, which is critical to effective contingency
   planning. Also, two systems lacked off-site recovery capabilities. These
   systems support critical missions of tracking hazardous materials shipment and
   processing key accounting functions. In addition, management did not install
   proper equipment or perform tests at the recovery sites for three mission
   critical systems, which are used to management billions of dollars of grant
   payments and to compile essential transportation statistics. DOT management
   took immediate actions to correct the weaknesses by establishing off-site
                                                                                  14


   recovery capabilities for the two systems and agreeing to conduct testing for
   the other three systems.

Ø DOT needs to develop guidance on minimum geographic distance for recovery
  processing sites. When selecting an off-site facility for system recovery
  processing, the alternate location should be at a reasonable distance away from
  the primary site to reduce the probability of losing both sites to the same
  disaster. We found that most DOT system owners use existing facilities
  operated by DOT or contractors as their recovery sites. While this may be
  cost-effective, it does not provide adequate risk mitigation because some
  recovery sites are too close to the primary sites.

   For example, we found that geographic distances between the two sites are 10
   miles for highway systems, 15 miles for transportation statistic systems, and 25
   miles for transit systems. DOT relies on the highway and transit systems to
   manage more than $30 billion of annual grant payments. With such close
   proximity, a single catastrophic event could take both processing sites out of
   service and seriously damage DOT's capability to support the highway and
   transit industries. In contrast, the recovery site for the departmental accounting
   system, which is used to manage $10 billion of annual contract payment, is
   about 800 miles away from the primary processing site. DOT needs to provide
   guidance on minimum acceptable geographic distance between the primary
   and recovery sites.

RECOMMENDATIONS
1. We recommend that DOT Chief Information Officer implement the following
   actions to improve oversight of IT investments:

   a) Develop specific criteria for selecting IT investment projects that should be
      reviewed by the departmental Investment Review Board, and direct the
      Operating Administrations to report the status of these investment projects
      to the DOT CIO Office.

   b) Verify the reliability and reasonableness of IT budget requests before
      submission to OMB.

   c) Ensure appropriate Operating Administrations are invited to attend the
      departmental Board review meetings, and ensure that DOT CIO Office staff
      attends the Operating Administrations' review meetings when appropriate.

2. We recommend that DOT Chief Information Officer incorporate corrective
   action plans and target completion dates for the following items in the FY 2003
   Federal Managers' Financial Integrity Act report:
                                                                                15


   a) Commit resources to fix the following repeated security weaknesses that we
      had included in previous security evaluation reports:

      i. Require the Operating Administrations to provide support for security
         cost estimates.

      ii. Work with the DOT Senior Procurement Executive and the Director of
          Office of Security and Administrative Management to ensure adequate
          background checks are performed on personnel performing sensitive
          computer work.

   b) Issue guidance to ensure complete reporting of major security incidents to
      the Federal Computer Incident Response Center.

   c) Improve the authorization process and perform quarterly compliance
      reviews of connections to DOT's internal networks; and install additional
      monitoring devices to detect unsecured telephone line (dial-up modem)
      connections. In addition, direct the Operating Administrations to perform
      vulnerability assessments of their computers to ensure timely installation of
      software patches.

   d) Direct the Operating Administrations to develop and implement plans to
      meet DOT's new goal of having 90 percent of all systems certified for
      adequate security by July 2004; perform quality assurance checks of system
      certification reviews to ensure adequate testing of security controls and
      proper accreditation by designated officials; and require the Operating
      Administrations to track security expenditures.

   e) Require FAA to develop and implement a timetable to conduct security
      certification reviews of air traffic control systems at operational sites.

   f) Direct the Operating Administrations to develop and implement plans to
      perform business impact analysis, develop contingency plans, and conduct
      testing to ensure business continuity in case computer system operations are
      disrupted. In addition, issue guidance on the minimum acceptable
      geographic distance between the primary and recovery processing sites.


MANAGEMENT COMMENTS
A draft of this report was provided to the DOT Chief Information Officer and the
FAA Chief Information Officer on September 23, 2003. They agreed with the
report's findings and recommendations. The DOT Chief Information Officer
agreed to provide specific action plans and estimated completion dates in DOT's
FMFIA submissions to OMB.
                                                                                 16


ACTION REQUIRED
In accordance with DOT Order 8000.1C, within 30 days, please provide the
specific actions taken or planned, including specific target dates for completion on
the recommendations. In addition, we would appreciate receiving DOT's FMFIA
corrective action plan upon its submission to OMB.

We appreciate the courtesies and cooperation of DOT and the Operating
Administrations' representatives. If you have questions concerning this report,
please call Ted Alves, Assistant Inspector General for Financial Management and
Information Technology Audits, at (202) 366-1992, or Rebecca Leng, Deputy
Assistant Inspector General for Information Technology and Computer Security
Audits, at (202) 366-1496.

                                         #
EXHIBIT A. OIG INPUT TO FISMA REPORT

For the last 2 years, DOT reported its information security program as a material internal control weakness under the
Federal Managers' Financial Integrity Act (FMFIA). This year, DOT made significant progress meeting its
commitment to improve information security. The most noteworthy improvement DOT has made since we began the
annual information security review in FY 2001 is in protecting its computer systems from attack by outsiders. For
example, DOT enhanced its defense against intrusions from the Internet in FY 2002, and further reduced its
vulnerability to attack this year by establishing a Departmentwide security incident response center. This center, in
conjunction with FAA’s incident response center, detects, analyzes, and prevents hundreds of potential intrusions
from the Internet on a daily basis. Also, this year, DOT appointed a Chief Information Officer (CIO), increased the
CIO's resources and influence, and developed a more reliable inventory of systems, all of which further strengthened
DOT’s information security protection.
However, DOT still has a long way to go in securing its computer systems from attack by insiders: employees,
contractors, grantees, and industry associations. According to the Federal Bureau of Investigation, insiders remain a
major threat—about 50 percent of unauthorized activities against all computers were done by insiders during 2003.
DOT is not exempted from such a threat. We also found that DOT needs to enhance its contingency planning to
ensure business continuity in case key computer system operations are disrupted for a prolonged period of time.
In view of the security weaknesses that still need to be corrected, DOT's information security program remains a
material weakness and requires continued senior management attention. In FY 2004, it will be critical for the
departmental CIO, with support from the Operating Administrators and their respective CIOs, to continue exercising
leadership and providing the direction and oversight to ensure that the Operating Administrations develop adequate
plans to correct the remaining weaknesses and execute those plans effectively. DOT's progress correcting the
remaining weaknesses will help clarify whether the CIO has adequate authority, resources, and processes to ensure
effective IT security and investment management controls.




                                                                                                                   17
A.1. Identify the agency’s total IT security spending and each individual major operating division or bureau’s IT security spending
as found in the agency’s FY03 budget enacted. This should include critical infrastructure protection costs that apply to the
protection of government operations and assets. Do not include funding for critical infrastructure protection pertaining to lead
agency responsibilities such as outreach to industry and the public.
                                                                                                    FY03 IT Security Spending
Bureau Name                                                                                           ($ in thousands)
                    __                                                                                     __
Agency Total                                                                                             __

OIG was not required to respond to this question.




                                                                                                                                      18
A.2a. Identify the total number of programs and systems in the agency, the total number of systems and programs reviewed by the program officials and CIOs in FY03, the total
number of contractor operations or facilities, and the number of contractor operations or facilities reviewed in FY03. Additionally, IGs shall also identify the total number of
programs, systems, and contractor operations or facilities that they evaluated in FY03.

                                                                                                FY03 Programs          FY03 Systems           FY03 Contractor Operations or Facilities
                                                                                              Total  Number   Total           Number   Total
Bureau Name                                                                                   Number Reviewed Number          Reviewed Number           Number Reviewed
BTS                                                                                              1          1          7           7             1                       1
FAA                                                                                              1          1         421         157           9                       9
FHWA                                                                                             1          1         25          25            7                       7
FMCSA                                                                                            1          1         19          19            6                       4
FRA                                                                                              1          1         22          22            6                       6
FTA                                                                                              1          1          7           7             2                       1
MARAD                                                                                            1          1         12          12            0                       0
NHTSA                                                                                            1          1         42          42            2                       2
OST                                                                                              1          1         46          46            3                       3
RSPA                                                                                             1          1         25          25            0                       0
SLSDC                                                                                            1          1          1           1             0                       0
STB                                                                                              1          1          3           3             0                       0
Agency Total                                                                                     12         12        630         366           36                      33
Number reviewed by Office of Inspector General                                                  __          12         __          27           __                       2
b. For operations and assets under their control, have agency program officials and the
agency CIO used appropriate methods (e.g., audits or inspections) to ensure that contractor
provided services or services provided by another agency for their program and systems are            Yes               X                No                         __
adequately secure and meet the requirements of FISMA, OMB policy and NIST guidelines,
national security policy, and agency policy?

                                                                                              This year DOT began evaluating contractor operated web sites. DOT used the NIST Self-
                                                                                              Assessment guidance 800-26. Several systems located at contractor facilities have been
c. If yes, what methods are used? If no, please explain why.
                                                                                              certified and accredited. Others are currently going through certification or self-assessment
                                                                                              reviews.
d. Did the agency use the NIST self-assessment guide to conduct its reviews?                          Yes               X                No                        __
e. If the agency did not use the NIST self-assessment guide and instead used an agency
developed methodology, please confirm that all elements of the NIST guide were addressed              Yes             __                 No                        __
in the agency methodology.
                                                                                            During FY 2003, DOT revised its system inventory. The revised system inventory showed
                                                                                            a reduction in the number of total computer systems (from about 1,200 to 630) and
                                                                                            mission-critical systems (from 500 to 220) as a result of transferring two Operating




                                                                                                                                                                                              19
f. Provide a brief update on the agency's work to develop an inventory of major IT systems.
                                                                                            Administrations to the Department of Homeland Security and consolidating systems
                                                                                            inventory accounting. FAA accounted for two-thirds of the reduction. We consider the
                                                                                            revised system inventory reasonable.
A.3. Identify all material weakness in policies, procedures, or practices as identified and required to be reported under existing law in FY03. Identify the number of
material weaknesses repeated from FY02, describe each material weakness, and indicate whether POA&Ms have been developed for all of the material weaknesses.

                                                                                                    FY03 Material Weaknesses
                                                                   Total Number                                                                                       POA&Ms
                                                         Total     Repeated from                                                                                     developed?
Bureau Name                                             Number         FY02                       Identify and Describe Each Material Weakness                          Y/N


                                                                                   For the last two years, DOT reported its information security program as a
                                                                                   material internal control weakness under the Federal Managers' Financial
                                                                                   Integrity Act (FMFIA). Since we began the annual computer security review
                                                                                   of DOT's information security program in FY 2001, DOT has made significant
                                                                                   progress protecting its systems from attack by outsiders. However, DOT still
                                                                                   has a long way to go in securing its computer systems from attack by
                                                                                   insiders. A critical and effective security measure to reduce this threat is to
                                                                                   perform system certification reviews. However, only 33 percent of DOT
                                                                                   systems will have undergone such reviews as of September 30, 2003. We
Department of Transportation (Agency Total)                1             1         also found that DOT needs to enhance its system contingency planning
                                                                                                                                                                       Yes
                                                                                   efforts.

                                                                                   In view of the extensive remaining security weaknesses, DOT's information
                                                                                   security program remains a material weakness and requires continued senior
                                                                                   management attention. We have included recommendations in our annual
                                                                                   information security independent evaluation report number (FI-2003-086),
                                                                                   dated September 25, 2003 to help the Department correct the material weakne




                                                                                                                                                                                  20
A.4. This question is for IGs only. Please assess whether the agency has
developed, implemented, and is managing an agency-wide plan of action and
milestone process that meets the criteria below. Where appropriate, please
include additional explanation in the column next to each criteria.                     Yes           No
Agency program officials develop, implement, and manage POA&Ms for every system
that they own and operate (systems that support their programs) that has an IT                X (1)        __
security weakness.
Agency program officials report to the CIO on a regular basis (at least quarterly) on
                                                                                               X           __
their remediation progress.
Agency CIO develops, implements, and manages POA&Ms for every system that they
own and operate (systems that support their programs) that has an IT security                  X           __
weakness.
The agency CIO centrally tracks and maintains all POA&M activities on at least a
                                                                                               X           __
quarterly basis.
The POA&M is the authoritative agency and IG management tool to identify and
                                                                                               X           __
monitor agency actions for correcting information and IT security weaknesses.
System-level POA&Ms are tied directly to the system budget request through the IT
business case as required in OMB budget guidance (Circular A-11) to tie the                   X (2)        __
justification for IT security funds to the budget process.
Agency IGs are an integral part of the POA&M process and have access to agency
                                                                                               X           __
POA&Ms.

The agency's POA&M process represents a prioritization of agency IT security
                                                                                              X(3)         __
weaknesses that ensures that significant IT security weaknesses are addressed in a
timely manner and receive, where necessary, appropriate resources.


(1) In July 2003, we brought it to management's attention that not all systems with
known security weaknesses had a POA&M. DOT took immediate corrective actions
and agreed to have POA&Ms developed for all systems with an IT security weakness
by September 30, 2003.



(2) System level POA&Ms are linked directly to the budget submission. However, as
we reported this year, system owners can not support system security budget cost
estimates and do not track spending to ensure that resources are spent as requested.



(3) DOT has implemented a process to prioritize security weaknesses, however, at this
time, it is unknown whether the process has been effectively implemented.




                                                                                                                21
                                                  During FY 2003, The Secretary made progress by appointing a Departmentwide CIO and obtaining significant
                                                  budget increases for the Office of the CIO. The Secretary also increased the CIO’s influence over IT decisions by
                                                  forming a departmental Investment Review Board (the Board). The CIO is a key member on the Board.
B.1. Identify and describe any specific steps
taken by the agency head to clearly and           Creation of the Board and enhancement of the CIO's influence should improve DOT's oversight of IT investments
unambiguously set forth FISMA's                   and security; however, it is too early to judge their effectiveness. Historically, the Operating Administrations have
responsibilities and authorities for the agency   functioned independently on IT matters with little departmental direction. Also, the Review Board did not start
CIO and program officials. Specifically how       reviewing IT investments until June this year. During FY 2004, at the request of the Senate Appropriations
are such steps implemented and enforced?          Committee, we plan to evaluate the effectiveness of the CIO’s efforts to coordinate with the Operating
                                                  Administrations in improving IT security and investment controls.




B.2. Can a major operating component of the       Yes. DOT policy requires Operating Administrations develop business case (Exhibit 300) for major IT investments
agency make an IT investment decision             that are reviewed by the CIO for concurrence. Non-major IT investments (with a lifecycle cost of less than $150
without review by and concurrence of the          million) are not subject to the same review process for concurrence. The Operating Administrations can and do
                                                  make non-major IT investment decisions without CIO review and concurrence.
agency CIO?

                                               The Secretary has delegated the responsibility for developing and maintaining DOT's information security program
                                               to the CIO. The CIO Office has issued multiple implementation guidelines, including methodology to certify system
                                               security throughout the life cycles of individual systems. During FY 2003, the number of DOT systems certified as
B.3. How does the head of the agency ensure adequately secured will increase from 12 percent to 33 percent for all systems, and from 21 percent to 68 percent
that the agency’s information security plan is for mission-critical systems. Nonetheless, DOT is trailing behind the Administration's goal of having 80 percent of
practiced throughout the life cycle of each    systems certified for adequate security by September 2003. To emphasize the importance of this task, DOT
agency system?                                 recently established a new goal to have 90 percent of all systems certified for adequate security by July 2004.
                                               However, Operating Administrations plans need to be adjusted to support this new goal. The CIO office is working
                                               with the Operating Administrations to develop work plans to meet this new goal.




B.4. During the reporting period, did the         The Secretary delegated the responsibility of overseeing program officials' performance of practicing information
                                                  security to the CIO. Both the CIO and program officials' performance are subject to our independent evaluation.
agency head take any specific and direct
                                                  According to the CIO Office, they conducted compliance reviews on the Operating Administrations’ progress in
actions to oversee the performance of 1)
                                                  developing security plans and certifying systems for meeting requirements. However, we could not verify the
agency program officials and 2) the CIO to
                                                  effectiveness of the CIO's compliance reviews because there was no documentation of the discussions or actions
verify that such officials are ensuring that
                                                  taken resulting from the reviews. In addition, DOT needs to improve the quality of security testing. We found that
security plans are up-to-date and practiced
                                                  5 out of 8 systems we reviewed this year did not have any documentation supporting the result of security testing.
throughout the lifecycle of each system?
                                                  We recommended corrective actions in our independent evaluation report.
Please describe.




                                                                                                                                                                          22
                                               The creation of the Department of Homeland Security (DHS) has resulted in a major impact on DOT critical
                                               infrastructure security responsibilities. Since DHS is now the lead agency, DOT no longer has primary
                                               responsibilities for securing the critical infrastructure in the transportation sector. However, DOT is still responsible
B.5. Has the agency integrated its information
                                               for securing about 100 air traffic control systems critical to the nation's infrastructure. For other security
and information technology security program
                                               responsibilities, DOT has integrated its information security program with the continuity of operations program, but
with its critical infrastructure protection
                                               not the physical security program. During FY 2003, the CIO Office, in conjunction with DOT emergency staff,
responsibilities, and other security programs
                                               established emergency communications capabilities to allow senior managers to communicate, if DOT
(e.g., continuity of operations, and physical
                                               Headquarters became nonfunctional. The CIO Office is also monitoring the Operating Administrations’
and operational security)? Please describe.
                                               development of contingency plans for computer systems. However, as we reported this year, only 26 percent of
                                               DOT systems have contingency plans and some of these contingency plans were inadequate or had not been
                                               tested.




                                                   DOT has a separate office responsible for the physical security program, which reports to the Assistant Secretary
B.6. Does the agency have separate staffs          for Administration. Both the Assistant Secretary and the CIO report to the Secretary. These two offices work
                                                   together on joint projects, such as exploring use of the smart card technology to enhance access security (the
devoted to other security programs, are such
                                                   Common Access Architecture Project). They also work together on developing the infrastructure in DOT’s new
programs under the authority of different
                                                   Headquarters building.
agency officials, if so what specific efforts
have been taken by the agency head or other
                                                   FAA also has divided these security responsibilities. The FAA CIO is responsible for leading system security
officials to eliminate unnecessary duplication
                                                   certifications, and the Associate Administrator for Civil Aviation Security is responsible for leading physical security
of overhead costs and ensure that policies and
                                                   certifications. Both report to the FAA Administrator. The timetables for system and physical security certification
procedures are consistent and complimentary        reviews are not coordinated. While completion of system certification reviews has been accelerated to FY 2004,
across the various programs and disciplines?       physical security certifications are still scheduled to be completed in FY 2009.




                                                                                                                                                                              23
B.7. Identification of agency's critical operations and assets (both national critical operations and assets and mission critical) and the interdependencies and interrelationships of
those operations and assets.

a. Has the agency fully identified its national critical operations and assets?                                   Yes                   X         No                           __
b. Has the agency fully identified the interdependencies and interrelationships of those nationally critical
operations and assets?
                                                                                                                  Yes                   X         No                           __
c. Has the agency fully identified its mission critical operations and assets?                                    Yes                   X         No                           __
d. Has the agency fully identified the interdependencies and interrelationships of those mission critical
operations and assets?
                                                                                                                  Yes                   X         No                           __


                                                                                                                  Last year, DOT planned to use the Project Matrix methodology to
                                                                                                                  identify interrelationships of mission-critical systems. DOT later
                                                                                                                  concluded that it is not cost-beneficial to pursue the use of Project
                                                                                                                  Matrix. Instead, DOT issued guidance for establishing and maintaining
                                                                                                                  an inventory of general support systems and major applications. Using
                                                                                                                  this guide, the Operating Administrations are required to record all their
                                                                                                                  systems as either mission critical or non-mission critical, and to
                                                                                                                  document any system information sharing, interfaces,
e. If yes, describe the steps the agency has taken as a result of the review.                                     interdependencies and interrelationships. DOT identified 222 mission
                                                                                                                  critical systems and about 400 non-mission critical systems.

                                                                                                                  DOT has identified about 100 mission critical air traffic control systems
                                                                                                                  as essential to the nation's defense, economic security, or public
                                                                                                                  confidence. These systems have national significance and need to be
                                                                                                                  secured on a priority basis. DOT used the same inventory
                                                                                                                  methodology in identifying interdependencies and interrelationships of
                                                                                                                  these national critical systems.




f. If no, please explain why.                                                                                                               __




                                                                                                                                                                                       24
B.8. How does the agency head ensure that the agency, including all components, has documented procedures for reporting security incidents and sharing information
regarding common vulnerabilities?

                                                                             During FY 2003, DOT established the Transportation Cyber Incident Response Center (TCIRC)
                                                                             to work with FAA's Computer Security Incident Response Center (CSIRC), and to coordinate
                                                                             Departmentwide reporting of cyber incidents to the central authority (FedCIRC). Reporting to law
a. Identify and describe the procedures for external reporting to law
                                                                             enforcement authorities is coordinated with the Office of Inspector General. However, DOT
enforcement authorities and to the Federal Computer Incident Response
                                                                             external reporting procedure is not consistent with FedCIRC guidance. The Operating
Center (FedCIRC).                                                            Administrations reported a total of 69 incidents during FY 2003, of which 39 were major
                                                                             incidents. As we reported this year, DOT only reported 17 of 39 major incidents associated with
                                                                             viruses, denial-of-services attacks, or web defacements to FedCIRC.

b. Total number of agency components or bureaus.                             12
c. Number of agency components with incident handling and response
                                                                             12
capability.

d. Number of agency components that report to FedCIRC.                       2 (DOT's TCIRC and FAA's CSIRC)

e. Does the agency and its major components share incident information
                                                                             DOT reported 15 incidents to FedCIRC within 1 to 10 days depending on the criticality of the
with FedCIRC in a timely manner consistent with FedCIRC and OMB
                                                                             incident. But 2 incidents were reported to FedCIRC more than 40 days after the occurrences.
guidance?
f. What is the required average time to report to the agency and FedCIRC     DOT requires the Operating Administrations report serious incidents to TCIRC within 24 hours.
following an incident?                                                       DOT has agreed to establish a time requirement for reporting to FedCIRC.
                                                                        DOT oversees timely patch installation on DOT public-facing web servers through its weekly
                                                                        scanning which identifies the vulnerabilities that need to be patched. However, as we reported
g. How does the agency, including the programs within major components,
                                                                        this year, the automatic scanning was not consistently performed on DOT's private networks. We
confirm that patches have been tested and installed in a timely manner? found several incidents where DOT computers were vulnerable to attack because management
                                                                        did not install software patches timely.
h. Is the agency a member of the Patch Authentication and Distribution
Capability operated by FedCIRC?
                                                                             Yes                  X      No                         _ _

                                                                             DOT was given 75 account seats by FedCIRC for using this service. Currently, DOT has created
i. If yes, how many active users does the agency have for this service?      49 user accounts, but only 3 Operating Administrations (4 users) are actively using this service.
                                                                             Other Operating Administrations obtain software patches from manufactures directly.

j. Has the agency developed and complied with specific configuration
requirements that meet their own needs?
                                                                             Yes            _ _          No                                      X
k. Do these configuration requirements address patching of security
vulnerabilities?
                                                                             Yes            __           No                                      X




                                                                                                                                                                                 25
B.9. Identify by bureau, the number of incidents (e.g., successful and unsuccessful network penetrations, root or user
account compromises, denial of service attacks, website defacing attacks, malicious code and virus, probes and
scans, password access)
                            Number of incidents      Number of incidents reported      Number of incidents reported
Bureau Name                     reported                 externally to FedCIRC         externally to law enforcement
BTS                                2                             1                                  0
FAA                                3                             1                                  0
FHWA                              28                             1                                  0
FMCSA                              1                             0                                  0
FRA                                4                             1                                  0
FTA                                0                             0                                  0
MARAD                              2                             0                                  0
NHTSA                              2                             1                                  0
OST                               26                             12                                 1
RSPA                               1                             0                                  0
SLSDC                              0                             0                                  0
STB                                0                             0                                  0
        Total                     69                             17                                 1




                                                                                                                         26
C.1. Have agency program officials and the agency CIO: 1) assessed the risk to operations and assets under their control; 2) determined the level of
security appropriate to protect such operations and assets; 3) maintained an up-to-date security plan (that is practiced throughout the life cycle) for
each system supporting the operations and assets under their control; and 4) tested and evaluated security controls and techniques? By each major
agency component and aggregated into an agency total, identify actual performance in FY03 according to the measures and in the format provided
below for the number and percentage of total systems.




                                                                                                              g. Number of
                                                                                        f. Number of          systems for                          i. Number of
                              c. Number of        d. Number of                          systems with          which security                       systems for
                              systems             systems that       e. Number of       security control      controls have                        which
                              assessed for risk   have an up-to-     systems            costs integrated      been tested and     h. Number of     contingency
               b. Total       and assigned a      date IT            certified and      into the life cycle   evaluated in the    systems with a plans have been
               Number         level or risk       security plan      accredited*        of the system         last year           contingency plan tested
               of              No. of    % of
a. Bureau Name Systems        Systems   Systems    No.       %        No.       %         No.       %           No.       %        No.       %       No.       %

BTS                       7         7     100%           3    43%           3    43%            7    100%             7   100%           2    29%          1       14%
FAA                     421       180      43%      126       30%       70       17%       206        49%        164       39%       70       17%      70          17%
FHWA                     25        14      56%       14       56%       14       56%        25       100%         14       56%           7    28%          7       28%
FMCSA                    19        19     100%           6    32%           6    32%        19       100%             6    32%           6    32%          0       0%
FRA                      22        22     100%           6    27%           6    27%        22       100%             6    27%           0     0%          0       0%
FTA                       7         7     100%           7   100%           7   100%         7       100%             7   100%           3    43%          0       0%
MARAD                    12        12     100%           7    58%           7    58%        12       100%             7    58%           5    42%          0       0%
NHTSA                    42        42     100%       42      100%       42      100%        42       100%         42      100%       42      100%      17          40%
OST                      46        46     100%       46      100%       46      100%        46       100%         46      100%           8    17%          8       17%
RSPA                     25        25     100%       25      100%           4    16%        25       100%         25      100%       20       80%          0       0%
SLSDC                     1         1     100%           1   100%           1   100%            1    100%             1   100%           1   100%          0       0%
STB                       3         3     100%           3   100%           3   100%            3    100%             3   100%           3   100%          0       0%

Agency Total            630       378    60.0%      286      45.4%     209      33.2%      415      65.9%        328      52.1%     167      26.5%    103      16.3%


                 Based on our sample test, we did not identify any major discrepancies that would cause us to question the reliability
                 of the performance measures reported by the CIO Office.




                                                                                                                                                                         27
C.2. Identify whether the agency CIO has adequately maintained an agency-wide IT security program and ensured the effective implementation of the program and evaluated
the performance of major agency components.

                                                                                                                              Has the agency CIO         Do agency POA&Ms
Has the agency CIO                                                                                                            appointed a senior         account for all known
maintained an agency-   Did the CIO evaluate the                                                                              agency information         agency security
wide IT security        performance of all agency How does the agency CIO ensure that bureaus comply with the agency-wide     security officer per the   weaknesses including all
program? Y/N            bureaus/components? Y/N IT security program?                                                          requirements in FISMA?     components?

                                                                                                                                YES. In FY 2002, DOT
                                                                                                                                created an SES
                                                                                                                                position—Associate CIO
                                                                                                                                for Information Security.
                                                  The CIO Office collects system security certification review information and  During FY 2003, the
                                                  POA&M data from the Operating Administrations on a quarterly basis. As we position was renamed as
                                                  reported this year, the CIO Office needs to perform quality assurance reviews the Associate CIO for IT
                                                  of data collected from the Operating Administrations. We found incidents that Programs with added
YES                     YES                                                                                                                               YES
                                                  systems were certified as adequately secured without adequate security        responsilities of capital
                                                  testing or evaluation. The lack of adequate testing may explain why we found planning and investment
                                                  significant control deficiencies in systems that had undergone security       controls and enterprise
                                                  certification reviews.                                                        architecture. The
                                                                                                                                Associate CIO spent 60
                                                                                                                                percent of her time on
                                                                                                                                security this year.




                                                                                                                                                                              28
C.3. Has the agency CIO ensured security training and awareness of all agency employees, including contractors and those employees with significant IT
security responsibilities?

                                                            Agency employees with
Total                                 Total number of       significant security
number of   Agency employees that     agency employees      responsibilities that
agency      received IT security      with significant IT   received specialized                                                                 Total costs for
employees   training in FY03          security              training                                                                             providing training in
in FY03     Number       Percentage   responsibilities      Number         Percentage Briefly describe training provided                         FY03




                                                                                       DOT has done a commendable job in providing general
                                                                                       security awareness training to more than 60,000 employees.
                                                                                       FY 2003 is the second year that DOT provided
                                                                                       Departmentwide security awareness training, including
                                                                                       sessions directed to senior management, program officials,
                                                                                       and system users. DOT also provided specialized training
                                                                                       sessions such as network security to more than 600
                                                                                       individuals assigned with information security
  62,565      62,565      100.0%              681               678         99.6%      responsibilities.                                          $       413,374.00




                                                                                                                                                                         29
C.4. Has the agency CIO fully integrated security into the agency’s capital planning and investment control process? Were IT
security requirements and costs reported on every FY05 business case (as well as in the exhibit 53) submitted by the agency to
OMB?

                                    Did the agency program official        Did the agency CIO plan and
             Number of business     plan and budget for IT security and    budget for IT security and             Are IT security costs reported
Bureau       cases submitted to     integrate security into all of their   integrate security into all of their   in the agency's exhibit 53 for
Name         OMB in FY05            business cases? Y/N                    business cases? Y/N                    each IT investment? Y/N
BTS                    3                            Yes                                    Yes                                 Yes
FAA                    24                           Yes                                    Yes                                 Yes
FHWA                   6                            Yes                                    Yes                                 Yes
FMCSA                  3                            Yes                                    Yes                                 Yes
FRA                    2                            Yes                                    Yes                                 Yes
FTA                    3                            Yes                                    Yes                                 Yes
NHTSA                  7                            Yes                                    Yes                                 Yes
OST                    10                           Yes                                    Yes                                 Yes
RSPA                   2                            Yes                                    Yes                                 Yes




                                                                                                                                                   30
                                                                              31




EXHIBIT B. SCOPE AND METHODOLOGY

During Fiscal Year 2003, we fulfilled the requirements under FISMA by
reviewing DOT major financial systems, FAA air traffic control systems, and the
newly established capital planning and investment control process for managing
IT projects. In addition, we reviewed DOT's FISMA submission and performed
sample reviews to ensure the reasonableness of key performance measures
reported. We also provided input to DOT's FISMA report by answering questions
specified by OMB.

We used the audit methodologies recommended by the General Accounting Office
and the President's Council on Integrity and Efficiency, and guidelines issued by
other Government authorities such as the National Institute of Standards and
Technology. We used commercial scanning software to assess DOT's network
and web vulnerabilities.

We performed our work throughout FY 2003 and focused on reviewing FISMA
reporting between May 2003 and September 2003 at DOT and its Operating
Administrations' Headquarters located in Washington, D.C. The audit was
conducted in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.

We previously issued two audit reports on DOT's information security program in
response to the legislative mandate of the Government Information Security
Reform Act--DOT Information Security Program, Report Number FI-2002-115,
September 27, 2002; and DOT Information Security Program, Report Number FI-
2001-090, September 7, 2001.
                                                 32




EXHIBIT C. DOT COMPONENTS


Bureau of Transportation Statistics
Federal Aviation Administration
Federal Highway Administration
Federal Motor Carrier Safety Administration
Federal Railroad Administration
Federal Transit Administration
Maritime Administration
National Highway Traffic Safety Administration
Office of the Secretary
Research and Special Programs Administration
Surface Transportation Board
Saint Lawrence Seaway Development Corporation
                                                                   33




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                        Title

  Rebecca Leng                Deputy Assistant Inspector General for
                              Information Technology and Computer
                              Security

  Nathan Custer               Project Manager

  Philip deGonzague           Project Manager

  Michael Marshlick           Senior Computer Scientist

  Ping Sun                    Senior Computer Scientist

  James Mallow                Senior Auditor

  Henry Lee                   Computer Scientist

  Gary Klauber                Computer Scientist

  Cynthia Tims                Information Technology Specialist

  Mitchell Balakit            Information Technology Specialist

  Bradley Kistler             Information Technology Specialist

  Jean Yoo                    Information Technology Specialist
